                Audit of Controls Over Contract Payments




                                FINAL AUDIT REPORT




                                          ED-OIG/A07-A0015
                                             March 2001




Our mission is to promote the efficient                      U.S. Department of Education
and effective use of taxpayer dollars                          Office of Inspector General
in support of American education.                                   Kansas City, Missouri
                                NOTICE

  Statements that management practices need improvement, as well as other
 conclusions and recommendations in this report represent the opinions of the
Office of Inspector General. Determination of corrective action to be taken will
         be made by the appropriate Department of Education officials.

   In accordance with the Freedom of Information Act (5 U.S.C. §552), reports
issued by the Office of Inspector General are available, if requested, to members
  of the press and general public to the extent information contained therein is
                      not subject to exemptions in the Act.
                        Audit of Controls Over Contract Payments



                                       Table of Contents




Executive Summary ................................................................................. 1

Audit Results ........................................................................................... 3

         Finding 1 – Invoice Review Process Did Not Prevent Improper
         Payments ....................................................................................... 3

         Finding 2 – Appropriate Segregation of Duties Was Not
         Maintained in the Contract Payment Process ................................... 6

         Finding 3 – Vendor Payment Information Entry Process Needs
         Improvement.................................................................................. 8

Other Matters......................................................................................... 10

Background ........................................................................................... 11

Audit Scope & Methodology.................................................................. 13

Statement on Management Controls........................................................ 15

Appendix A – Department’s Response to the Draft Report ...................... 16
                      Audit of Controls over Contract Payments



                                   Executive Summary


We reviewed the contract payment process to determine the controls in place to prevent
and detect improper contract payments, and to evaluate the effectiveness of these controls
by testing the appropriateness of payments made. We found that improvements were
needed in the controls over the invoice review process, segregation of duties, and the
process for establishing vendor information in the Department of Education (Department)
contract payment system.

Improper payments have become an area of concern in the federal government. In
October 1999, the GAO issued a report entitled, “Increased Attention Needed to Prevent
Billions in Improper Payments.” This report defines improper payments as “...payments
made for unauthorized purposes or excessive amounts, such as overpayments to program
recipients or contractors and vendors.” The report further states that “improper payments
can result from incomplete or inaccurate data used to make payment decisions,
insufficient monitoring and oversight, or other deficiencies in agency information
systems and weaknesses in internal control.” 1

In October 2000, GAO updated its work regarding improper payments. This report
further defined improper payments as payments that, “…include inadvertent errors, such
as duplicate payments and calculation errors; payments for unsupported or inadequately
supported claims; payments for services not rendered or to ineligible beneficiaries; and
payments resulting from outright fraud and abuse.” 2

We found that improper payments were made in 8 of 39 payments reviewed. This
occurred because the invoice review process was not followed. Specifically, we noted
the following:

*   Rates claimed were not supported.
*   Payments were made for periods beyond the contract period of performance.
*   Invoices were not adequately supported.

As a result, the Department lacks assurance that payments were proper. We recommend
that the Chief Financial Officer (CFO) develop policies and procedures to ensure that


1
  United States General Accounting Office, Report to the Chairman, Committee on Governmental Affairs,
U.S. Senate, October 1999, “Financial Management – Increased Attention Needed to Prevent Billions in
Improper Payments,” Report No. GAO/AIMD-00-10.
2
  United States General Accounting Office, Report to the Chairman, Committee on Governmental Affairs,
U.S. Senate, October 2000, “Financial Management – Billions in Improper Payments Continue to Require
Attention,” Report No. GAO-01-44.


ED-OIG/A07-A0015                                                                            Page 1
invoice review processes are followed, and establish an internal control monitoring
procedure to periodically review payments for appropriateness.

We found that appropriate segregation of duties was not maintained in the contract
payment process. 3 In one instance, a Contracting Officer (CO) also performed the duties
of a contract specialist on a contract, both approving and certifying invoices for payment.
Some contract specialists relied on the Contracting Officer’s Technical Representatives
(COTR) to review invoices, rather than performing their own independent reviews.
Some invoices were sent directly to the COTR or program offices, rather than to
Contracts and Purchasing Operations so that payments could be tracked in accordance
with prompt payment requirements. As a result, the risk of error or fraud is increased and
the invoice payment process is weakened without the independent check of the
appropriateness of the amounts to be paid. We recommend that the CFO ensure
appropriate segregation of duties in the contract payment process.

The process for entering vendor information in the Department’s contract payment
system needs improvement. Staff who enter this information did not always obtain
documentation from the vendors, but rather entered the data based on an electronic mail
message from program or contracting staff. There was no second level of review to
ensure the data received was reasonable, or that the information was accurately entered.
While we did not find any errors in this area, incorrect vendor information could be
entered, resulting in improper payments. We recommend that the CFO require
documentation from the vendors be provided to staff entering this information into the
payment system and that a review process be established to assess the reasonableness of
data received and the accuracy of data entered.

The Office of the Chief Financial Officer (OCFO) generally concurred with our findings
and agreed to either re-emphasize, implement or take under advisement the
recommendations included in the report, except that the response indicates the OCFO
believes there is adequate information available concerning the payment process without
implementing additional policies and procedures. Further, the OCFO/CPO will reinforce
existing procedures through continuous enforcement. To strengthen the internal control
processes related to contracting, we maintain our position that the recommended control
procedures should be implemented by OCFO. The full text of the OCFO response is
provided as Appendix A.



3
  ED’s Administrative Communication System directive C:GPA:2-110 entitled, “Contract Monitoring for
Program Officials,” defines the following roles:
* Contracting Officer – The Government’s exclusive agent as a party to a contract and therefore the only
    party with the authority to enter into, administer, and terminate contracts and make related
    determinations and findings.
* Contract Specialist – The Contracting Officer’s designated representative in the contracting office who
    acts on behalf of the CO in most of the day-to-day administration of a contract.
*   Contracting Officer’s Technical Representative – The program office representative responsible for
    monitoring programmatic or technical aspects of a contract and making recommendations to the
    Contracting Officer for necessary contract action.


ED-OIG/A07-A0015                                                                                Page 2
                   Audit of Controls Over Contract Payments


                                   Audit Results


We found that improvements were needed in the controls to prevent and detect improper
payments. Specifically, we found that improvements were needed in the controls over
the invoice review process, segregation of duties, and the process for establishing vendor
information in the payment system.

During our audit, we also identified two related issues. In an expanded review of one of
the contracts in our sample, we identified two errors that had not been detected by the
Department – one duplicate payment and one invoice that was never paid. We also found
that contract and program staff did not have independent records with which to validate
the system-generated quantities included on some invoices and therefore had no
assurance of their accuracy. The Other Matters section of the report contains additional
information on these two issues.


Finding No. 1 – Invoice Review Process Did Not Prevent Improper Payments.


Improper payments were made in 8 of 39 payments reviewed (20%). We found that four
payments included rates that were not supported, one payment was made for services
beyond the contract term, and three invoices did not include complete supporting
documentation. This occurred because program and contracting staff did not adequately
review invoices prior to payment. Specifically, staff did not validate invoice amounts to
price lists, verify rates or periods of performance to contract terms, review supporting
documentation or require invoices with sufficient detail. While the total amount of
inaccurate payments noted in our sample was not material, the Department of Education
(Department) lacks assurance that payments were proper.

The U.S. General Accounting Office (GAO) issued “Standards for Internal Control in the
Federal Government,” most recently updated in November 1999. GAO established five
standards which define the minimum level of quality acceptable for internal control in the
government and provide the basis against which internal control is to be evaluated. The
five standards are control environment, risk assessment, control activities, information
and communications, and monitoring.




ED-OIG/A07-A0015                                                                  Page 3
Review of invoices prior to payment is an example of a control activity. GAO defines
control activities as follows:

        Control activities are the policies, procedures, techniques and
        mechanisms that enforce management’s directives....They help ensure that
        actions are taken to address risks. Control activities are an integral part
        of an entity’s planning, implementing, reviewing, and accountability for
        stewardship of government resources and achieving effective results.

The Department has issued guidelines on the invoice review process. The Departmental
directive entitled, “Contract Monitoring for Program Officials,” provides guidelines on
the roles of the Contracting Officer (CO) and the Contracting Officer Technical
Representative (COTR) 4 in the invoice review process:

        The CO is responsible for approving a contractor’s invoice for payment,
        but only after review and advice from the COTR (as well as the CO’s own
        analysis) concerning the contents of the invoice and the contractor’s
        performance relative to what is being billed. 5

A baseline practices guide entitled, “Contract Payment Procedures,” issued by the Office
of the Chief Financial Officer and Chief Information Officer (OCFO & CIO), provides
the following additional guidelines:

        The contract specialist reviews the invoice/voucher to ensure it is
        appropriate for payment and verifies if any amounts should be withheld.
        This may include checking that it includes all information needed to be a
        “proper invoice/voucher,” it contains no arithmetical errors, costs billed
        were incurred and are allowable, or that required delivery or
        performance occurred.

        The COTR performs a similar review of the invoice/voucher and
        completes and returns the invoice/voucher cover memo to the contract
        specialist within 5 days. 6

Our audit found that improvements were needed in the invoice review process. Issues we
noted could have been found by Department staff had they thoroughly reviewed the
invoices. Examples of the issues noted in our review follow.

Rates claimed were not supported. One invoice included a line item that was billed at
an incorrect rate. The master billing table for this contract also included the incorrect
rate. This error was included in 11 monthly billings but was not noted by contract or

4
  COTRs are now known as Contracting Officer Representatives (COR).
5
  “Contract Monitoring for Program Officials,” Departmental Directive C:GPA:2-110, dated January 12,
1987, Section XI, Paragraph C.1.b.
6
   OCFO&CIO Contracts and Purchasing Operations Baseline Practices Guide, “Contract Payment
Procedures,” March 26, 1998 revision, pages 4 and 6.


ED-OIG/A07-A0015                                                                            Page 4
program staff who reviewed the invoices. The Department was underbilled by $3 per
unit for this deliverable on the sample payment, and by a total of $28.95 during our scope
period. In another case, an invoice of $725 was paid for $726. While neither of these
payment errors was material, thorough review of the invoices would have prevented these
errors.

For two additional payments in our sample, the overhead and/or fee rates charged on the
invoice did not agree with the rate in the contract. Contracting staff could not locate
documentation to support either a change in the overhead rates or the fee charged. The
change in overhead rates was not noted in the invoice review process.

Payments were made for periods beyond the contract period of performance. One
invoice billed for services in April 1999. However, at that time, the period of
performance for the purchase order was only through October 1998. The modification to
extend the period of performance was dated in January 2000, several months after the
sample invoice was paid and 15 months after the original period of performance expired.
This invoice, and 12 others for this contract were paid beyond the period of performance
prior to the execution of the modification.

Invoices were not adequately supported.                One invoice included substantial
documentation supporting costs claimed. However, several pages supporting costs of
$669,943 were not legible or were missing. Neither contract nor program staff reviewing
the invoices noted this issue. Two other invoices for a cost-reimbursement type contract
were not provided in sufficient detail to allow reviewers to judge the reasonableness,
allowability and allocability of the costs. Since close-out audits of these contracts are not
routinely performed, Contracts and Purchasing Operations (CPO) management had
informally agreed to obtain sufficient detail as the invoices are paid to provide additional
assurances of the appropriateness of invoiced amounts.

We presented the detailed results of our review to CPO management who agreed it is
their practice that contracting staff should review invoices with sufficient detail to ensure
compliance with contract terms.

Recommendation

We recommend the Chief Financial Officer:

1. Develop and implement policies and procedures to ensure that invoice review
   processes are followed by contract and program staff, including establishing an
   internal control monitor to review payments for appropriateness.

OCFO Response

OCFO generally concurred with Finding No. 1. OCFO stated that guidance is in place
related to reviewing vouchers, invoices, and the payment review process, and that our
recommendations were emphasized at a mandatory all-hands meeting of CPO staff on



ED-OIG/A07-A0015                                                                     Page 5
January 23, 2001. OCFO stated that there is adequate information available concerning
the payment process without implementing additional policies and procedures. Further,
CPO will reinforce these procedures through continuous enforcement of OCFO
procedures and internal control processes already in place.

Auditor Comments

While we agree that there are guidelines regarding the review and approval of vouchers
and invoices, they were not followed. We maintain our position that OCFO should
establish internal control procedures to assure that all staff and managers consistently
follow these guidelines.



Finding No. 2 – Appropriate Segregation of Duties Was Not Maintained in the
                Contract Payment Process


Appropriate segregation of duties was not maintained in the contract payment process.
Specifically, we found that a Contracting Officer was also performing the duties of a
contract specialist. We also found that some contract specialists relied on the COTR to
review invoices, and that invoices were sent directly to the COTR or Department
program staff, rather than to CPO. This occurred because staff did not recognize the
importance of segregation of duties in the payment system. As a result, the risk of error
or fraud is increased and the invoice payment process is weakened without the
independent check of the appropriateness of the amounts to be paid.

GAO’s “Standards for Internal Control in the Federal Government” include segregation
of duties as a control activity.

       Segregation of Duties – Key duties and responsibilities need to be divided or
       segregated among different people to reduce the risk of error or fraud. This
       should include separating the responsibilities for authorizing transactions,
       processing and recording them, reviewing the transactions, and handling any
       related assets. No one individual should control all key aspects of a transaction
       or event.

The Department’s guidelines presented in Finding 1 prescribe the responsibilities of the
CO, the contract specialist, and the COTR in the invoice review process. The
involvement of these separate parties helps assure the appropriateness of payments made.

A Contracting Officer was also performing the duties of a contract specialist. For
one contract reviewed with a significant number of payments, the same CPO staff
member performed the functions of both the CO and the contract specialist – responsible
for the initial review and approval, as well as the certification for payment, of invoices.
This occurred partially because the CO was promoted from a contract specialist and his
access in the payment system was not adjusted to remove the contract specialist


ED-OIG/A07-A0015                                                                   Page 6
functions. Also, the CO stated that due to the volume of invoices processed on the
contract, having two separate parties involved would be too time consuming.

Contract specialists relied on the COTR to perform invoice reviews. For two
contracts reviewed, the contract specialists relied upon the COTRs to perform invoice
reviews, rather than performing their own independent reviews in addition to the COTRs’
reviews. Department guidelines clearly show that both the contract specialist and the
COTR are to review invoices prior to payment as follows:

       The contract specialist reviews the invoice/voucher to ensure it is
       appropriate for payment and verifies if any amounts should be withheld.
       This may include checking that it includes all information needed to be a
       “proper invoice/voucher,” it contains no arithmetical errors, costs billed
       were incurred and are allowable, or that required delivery or
       performance occurred.

       The COTR performs a similar review of the invoice/voucher and
       completes and returns the invoice/voucher cover memo to the contract
       specialist within 5 days. 7

By relying upon the COTR to perform both reviews, the contract specialists are
jeopardizing the purpose of the independent check to ensure payments are appropriate.

Invoices were sent directly to the COTR or program staff, rather than to CPO. For
three payments reviewed, we noted that invoices were sent directly to the COTR or
program staff, rather than to CPO. Two of these payments were the two cases presented
above where the contract specialists relied upon the COTRs to review the invoices. The
risk of error or fraud is increased when appropriate segregation of duties is not
maintained. In order to ensure the appropriate segregation of duties, and timely reviews,
invoices should be sent to CPO.

During the course of our audit, we presented the detailed results of our review to CPO
management, who informed us that they had already initiated actions to ensure that the
CO no longer has access to the contract specialist functions. In addition, they have
initiated actions to remove these functions in the payment system from all Contracting
Officers. As previously stated in Finding 1, CPO management also agreed that
contracting staff should review invoices to ensure compliance with contract terms.




7
  OCFO&CIO Contracts and Purchasing Operations Baseline Practices Guide, “Contract Payment
Procedures,” March 26, 1998 revision, pages 4 and 6.


ED-OIG/A07-A0015                                                                    Page 7
Recommendations

We recommend that the Chief Financial Officer:

1. Ensure that Contracting Officers do not also perform the duties of contract specialists.
2. Ensure that the Contracting Officer’s access to the payment system is corrected to
   prohibit access to the contract specialist screens.
3. Conduct a review to ensure that other Contracting Officers do not have inappropriate
   access to the contract specialist screens, thereby bypassing the segregation of duties
   intended in the system. If so, ensure that Contracting Officers are prohibited from
   access to contract specialist functions.
4. Emphasize to contracting staff the importance of segregation of duties in their
   functions and provide training as needed.
5. Ensure all contract invoices are addressed to CPO, rather than to COTR or program
   staff.

OCFO Response

Regarding Finding No. 2, OCFO stated that the recommended changes to segregate
duties were initiated in July 2000, and that our recommendations were emphasized at a
mandatory all-hands meeting of CPO staff on January 23, 2001. For those instances
where a contracting officer may serve as the contracting administrator as well, another
contracting officer or senior CPO contracting official will participate in the review and
approval process. Further, OCFO will reinforce these procedures through continuous
enforcement of OCFO procedures and internal control processes already in place.

Auditor Comments

If consistently followed, we agree that the OCFO strategy could provide the appropriate
segregation of duties we recommended.



Finding No. 3 – Vendor Payment Information Entry Process Needs Improvement


Documentation from the vendors, including banking information where electronic
payments are authorized, was not always provided to the OCFO staff entering the data in
the contract payment system. Instead, program or contracting staff provided this
information through an electronic mail message. There is no second level of review to
ensure the data received appears reasonable or that the information was accurately
entered into the payment system. This occurred because OCFO staff did not consider it
necessary to provide original documentation from the vendor to staff responsible for
entering the data. Although we did not find any errors in this area, the electronic mail




ED-OIG/A07-A0015                                                                   Page 8
messages could contain inadvertent mistakes resulting in payment errors.          Incorrect
vendor information could be provided allowing improper payments.

Ensuring that accurate and appropriate information is entered into the payment system is
an important internal control. Since payments are made to the Department’s vendors
based on this data, the Department could make improper payments. GAO’s “Standards
for Internal Control in the Federal Government,” state that:

       Internal control should be designed to provide reasonable assurance
       regarding prevention of or prompt detection of unauthorized acquisition,
       use or disposition of an agency’s assets.

Improvements have been made recently in this process, as the number of staff who input
this data has been reduced. However, further improvements are needed to ensure that the
information is reasonable and accurate. CPO management stated that they were aware of
this issue and are in the process of providing guidance to the Chief Financial Officer,
including requiring original documentation from vendors to be provided to the staff
member entering the payment data.

OCFO systems staff stated that plans are being pursued to match vendor file information
with Dun and Bradstreet data. This will provide a higher level of assurance of the
accuracy of the vendor data. However, they agreed that obtaining original documentation
from the vendors would be preferable to the electronic mail messages.

Recommendations

We recommend the Chief Financial Officer:

1. Immediately ensure that original documentation from vendors be provided to staff
   who enter vendor data in the payment system.
2. Establish a review process for the initial data input to assess the reasonableness of the
   data received and to review the accuracy of the information in the payment system.

OCFO Response

Regarding Finding No. 3, OCFO notes that our review found no errors, yet determined
that weaknesses exist. OCFO states that our recommendations were emphasized at a
mandatory all-hands meeting of CPO staff on January 23, 2001. OCFO/CPO will
prepare written guidance to reinforce its existing policy related to enforcing contract
terms and conditions related to obtaining original documentation from contractors and
providing this documentation to staff entering vendor information into the payment
system. Further that OCFO will reinforce these procedures through continuous
enforcement of OCFO procedures and internal control processes already in place. OCFO
stated that the second recommendation related to this finding will be taken under
advisement.




ED-OIG/A07-A0015                                                                    Page 9
Auditor Comments

If consistently followed, we agree that the OCFO strategy could provide the appropriate
level of control recommended. However, we maintain our position that establishing a
review process for the initial input of vendor data is an important control that should be
implemented.




ED-OIG/A07-A0015                                                                 Page 10
                                  Other Matters



Additional Payment Errors

During our review of contract payments, we noted one contract where duplicate
payments were made during our scope period, but had been detected by contracting staff
and offset against later payments. To ensure that all such errors were detected by the
Department, we performed a review of all payments under this contract from its
inception, October 1, 1994, through May 31, 2000. In total, we matched 940 payments
totaling more than $12 million in the Department’s current and former payment systems
to copies of invoices in the contract files.

In our expanded review, we found one duplicate payment of $16,337.11 and one invoice
for $46,598.48 that was never paid. These errors were referred to CPO management who
immediately initiated corrective actions.


System-Generated Quantities

One of the contracts in our sample included significant quantities of loans processed on
the invoice that were calculated by the contractor’s system. This system was tested by
the Department when the contract first began in 1994, but has not been evaluated since.
The COTR did not have any independent documents available with which to compare
these quantities claimed on the invoices. As such, the Department does not have
assurance that the quantities for which they are being billed are accurate. The COTR
stated that he had recommended to the Contracting Officer that an independent review of
the system be conducted. Contracting staff have been discussing this option, but no
decision has yet been made. The Contracting Officer indicated that the Department has
other contracts with similar billing systems that generate quantities processed and
claimed on the invoices.

We encourage the Chief Financial Officer to authorize an independent review of this and
other similar contractor systems to provide assurance that the amounts claimed are
appropriate.




ED-OIG/A07-A0015                                                               Page 11
                                        Background


Improper payments have become an area of concern in the federal government. In
October 1999, the GAO issued a report entitled, “Increased Attention Needed to Prevent
Billions in Improper Payments.” This report defines improper payments as “...payments
made for unauthorized purposes or excessive amounts, such as overpayments to program
recipients or contractors and vendors.” The report further states: “Improper payments
can result from incomplete or inaccurate data used to make payment decisions,
insufficient monitoring and oversight, or other deficiencies in agency information
systems and weaknesses in internal control.” 8

GAO updated this work in October 2000 and defined improper payments as payments
that, “…include inadvertent errors, such as duplicate payments and calculation errors;
payments for unsupported or inadequately supported claims; payments for services not
rendered or to ineligible beneficiaries; and payments resulting from outright fraud and
abuse.” 9

The Department of Education’s March 2000 report entitled, “Department-wide
Objectives, 1999 Performance Reports and 2001 Plans,” for the Government
Performance and Results Act (GPRA), includes a reference to improper payments.
Presented under “Challenges to Achieving Our Objective” this reference states that:

        The Student Financial Assistance (SFA) program and the Office of the
        Chief Financial Officer (OCFO) have made some duplicate improper
        payments. The Department takes this issue very seriously and is working
        to enhance procedures to prevent any improper or duplicate payments.

        To improve the identification of improper payments, SFA and OCFO will
        be doing additional work with the offices that have monitoring and
        oversight responsibility for postsecondary institutions, lenders, and
        guaranty agencies. Procedure changes have been implemented in the
        OCFO to prevent duplicate payments.

We performed this audit to assess the controls over the contract payment process.


8
  United States General Accounting Office, Report to the Chairman of the Committee on Governmental
Affairs, U.S. Senate, October 1999, “Financial Management – Increased Attention Needed to Prevent
Billions in Improper Payments,” Report No. GAO/AIMD-00-10.
9
  United States General Accounting Office, Report to the Chairman, Committee on Governmental Affairs,
U.S. Senate, October 2000, “Financial Management – Billions in Improper Payments Continue to Require
Attention,” Report No. GAO-01-44.


ED-OIG/A07-A0015                                                                           Page 12
The payment system for contracts includes the Financial Management Support System
(FMSS) component of the Department of Education’s Centralized Automated Processing
System (EDCAPS). Depending on the type of contract, the Contracts and Purchasing
Support System (CPSS) component may also be involved. For the purposes of this
report, we use the term “contract” to include procurement actions by either the CPO staff
or staff designated with procurement authority within the individual program component.
This includes both formal contracts and purchase orders. Depending on the type of
contract, a CO, executive officer, contract specialist, COTR, and/or other program staff
may be involved in the payment process.

In very general terms, invoices or vouchers for payment (referred to collectively as
“invoices” in this report) are received and reviewed for accuracy and compliance with
contract terms, entered into the FMSS and certified for payment. Once certified, payment
information is provided to the U.S. Department of the Treasury where either an electronic
payment or a check is provided to the contractor or vendor.




ED-OIG/A07-A0015                                                                Page 13
                        Audit Scope and Methodology


The objectives of the audit were to (1) determine the controls in place to prevent and
detect improper contract payments, and (2) evaluate the effectiveness of these controls by
testing the appropriateness of payments made.

To accomplish our objectives, we obtained an understanding of the controls in place at
the Department over the contract payment process. We reviewed GAO Standards for
Internal Control in the Federal Government, as well as Departmental guidelines and
training manuals. We held discussions with officials in the OCFO, including staff in
CPO, Financial Management Operations, and Financial Systems Operations. During our
review of specific sample payments, we also held discussions with COTRs and other
program staff as appropriate.

We relied extensively on computer-processed data extracted from the Department’s
payment systems. We used an extract of payment information from the Department’s
FMSS to determine the universe of contract payments made. We identified a total of
9,293 such payments totaling approximately $1.2 billion, during our scope period,
October 1, 1998, through March 31, 2000. From this universe, we selected a stratified
sample as follows:

* A judgmental sample of 9 payments over $2.5 million. The universe contained 44
  payments over $2.5 million from eight different contracts. We judgmentally selected
  a sample of nine payments to include at least one payment from each contract.
* A random sample of 30 payments from the entire universe.

Our sample of 39 payments represented $37.6 million in payments, or 3.1% of the total
value of the payments in the universe.

To evaluate the appropriateness of payments made, we matched a sample of payments to
the hard copy invoices in the contract files, validated the mathematical accuracy of the
invoices, compared rates and prices to contract terms, reviewed payment approvals by
contract and program staff, verified the payee information with the Department’s vendor
files, and verified the amount disbursed with U.S. Department of Treasury records.

We also performed a limited review of additional payments for each contract sampled.
We matched additional payments made during our scope period from the hard copy
invoices included in the contract files to FMSS financial history reports and our universe
of contract payments. In total, we matched the payment amounts for an additional 446
invoices.




ED-OIG/A07-A0015                                                                 Page 14
As discussed in the Other Matters section of this report, we also reviewed all payments
made to one contract during the period October 1, 1994, through May 31, 2000. In total,
we matched 940 payments from the current and prior payment systems to copies of the
invoices in the contract files.

We tested the accuracy, authenticity, and completeness of the FMSS payment data by
comparing source records to computer data, and comparing computer data to source
records. We also matched computerized data in FMSS with the payment amounts
confirmed by the Department of the Treasury. Based on these tests and assessments, we
concluded that data were sufficiently reliable to be used in meeting the audit’s objectives.

We performed fieldwork at the Department of Education offices in Washington, DC, and
at our offices in Kansas City, MO, during the period April 13, 2000, through August 2,
2000. We conducted the audit in accordance with government auditing standards
appropriate to the scope of the review described above.




ED-OIG/A07-A0015                                                                   Page 15
                     Statement on Management Controls


As part of our review, we gained an understanding of the Department’s management
control structure over contract payments, as well as its policies, procedures, and practices
applicable to the scope of the audit. Our purpose was to assess the effectiveness of
controls to prevent and detect improper contract payments.

Because of inherent limitations, a study and evaluation made for the limited purpose
described above would not necessarily disclose all material weaknesses in the
management controls.        However, our assessment identified management control
weaknesses that adversely affected the Department’s ability to administer the contract
payment process. These weaknesses are fully discussed in the Audit Results and Other
Matters sections of this report.




ED-OIG/A07-A0015                                                                   Page 16
                           Appendix A

             Department’s Response to the Draft Report




ED-OIG/A07-A0015                                         Page 17
                    Audit of Controls over Contract Payments



                            Report Distribution List



                                                                      No. of
                                                                      Copies
              Action Official

Mark Carney, Deputy Chief Financial Officer
Office of Chief Financial Officer
U.S. Department of Education
Federal Building No. 10, Room 4366
Washington, D.C. 20202                                                   4

              Other ED Offices

Chief of Staff, Office of the Secretary                                  1
Director, Contracts and Purchasing Operations                            1
Deputy Secretary, Office of the Deputy Secretary                         1
Chief Operating Officer, Student Financial Assistance                    1
Chief Financial Officer, Student Financial Assistance                    1
General Counsel, Office of General Counsel                               1
Supervisor, Post Audit Group, Office of the Chief Financial Officer      1
Director, Office of Public Affairs                                       1

              Office of Inspector General (electronically)

Inspector General                                                         1
Deputy Inspector General                                                  1
Assistant Inspector General for Audit (A)                                 1
Assistant Inspector General for Analysis and Inspections                  1
Assistant Inspector General for Investigations                            1
Deputy Assistant Inspector General for Audit (A)                          1
Director, Student Financial Assistance Advisory and Assistance            1
Regional Inspectors General for Audit                                 1 each
